<html>
<title> - AN EFFICIENT WAY TO GROW JOBS: ENERGY UPGRADES THAT SAVE FAMILIES AND BUSINESSES MONEY, REDUCE POLLUTION, AND CREATE GOOD JOBS</title>
<body><pre>[Senate Hearing 113-728]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-728

 AN EFFICIENT WAY TO GROW JOBS: ENERGY UPGRADES THAT SAVE FAMILIES AND 
        BUSINESSES MONEY, REDUCE POLLUTION, AND CREATE GOOD JOBS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON GREEN JOBS
                          AND THE NEW ECONOMY

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                    SEPTEMBER 4, 2013--PORTLAND, OR

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys
                              __________
                              
                          U.S. GOVERNMENT PUBLISHING OFFICE 

96-020 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                             
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              
                              

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JAMES M. INHOFE, Oklahoma
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     MIKE CRAPO, Idaho
TOM UDALL, New Mexico                ROGER WICKER, Mississippi
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York         DEB FISCHER, Nebraska
MAZIE K. HIRONO, Hawaii

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                              ----------                              

             Subcommittee on Green Jobs and the New Economy

                     JEFF MERKLEY, Oregon, Chairman
THOMAS R. CARPER, Delaware           ROGER WICKER, Mississippi
BERNARD SANDERS, Vermont             JEFF SESSIONS, Alabama
BARBARA BOXER, California (ex        DAVID VITTER, Louisiana (ex 
    officio)                             officio)









                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 4, 2013
                           OPENING STATEMENT

Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........     1

                               WITNESSES

Kitzhaber, Hon. John A., M.D., Governor, State of Oregon.........     3
    Prepared statement...........................................     8
Colas, Andrew, President and Chief Operating Officer, Colas 
  Construction, Inc..............................................    15
    Prepared statement...........................................    17
Smith, Derek, Chief Executive Officer, Clean Energy Works Oregon.    19
    Prepared statement...........................................    22
Lopez-Dorsey, Berenice, Owner, Home Energy Life Performance 
  Group, Inc.....................................................    24
    Prepared statement...........................................    26
Dobhran, Sary, Energy Auditor and Home Performance Technician, 
  Home Energy Life Performance Group, Inc........................    29
    Prepared statement...........................................    31
Barnard, Casey, Project Director, Emerald Cities Portland........    33
    Prepared statement...........................................    35
Vonil, Tia, Electrical Apprentice, Oregon Tradeswomen, Inc.......    39
    Prepared statement...........................................    42
Cox, Kenneth, Ph.D., Superintendent, Vernonia School District, 
  State of Oregon................................................    45
    Prepared statement...........................................    47

 
 AN EFFICIENT WAY TO GROW JOBS: ENERGY UPGRADES THAT SAVE FAMILIES AND 
        BUSINESSES MONEY, REDUCE POLLUTION, AND CREATE GOOD JOBS

                              ----------                              


                      WEDNESDAY, SEPTEMBER 4, 2013

                               U.S. Senate,
         Committee on Environment and Public Works,
            Subcommittee on Green Jobs and the New Economy,
                                                      Portland, OR.
    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
the June Key Delta Community Center, 5940 North Albina Street, 
Portland, Oregon, Hon. Jeff Merkley, (chairman of the 
Subcommittee), presiding.
    Present: Senator Merkley (presiding).

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. I'll officially start this Committee 
hearing of the Green Jobs and the New Economy Subcommittee of 
the U.S. Senate Environment and Public Works Committee. I 
welcome everyone. And for those of you who are in the back, we 
still have seats right up here in the front row if you'd like 
to join us.
    Thank you, everyone, for coming. This hearing is titled 
``An Efficient Way to Grow Jobs: Energy Upgrades That Save 
Families and Businesses Money, Reduce Pollution,, and Create 
Good Jobs.'' There will be a lot of discussion about those 
components.
    I want to thank very much the staff members from the 
Environment and Public Works Committee who have come out to set 
up this official hearing, Steve Chapman and Andrew Dohrmann.
    Did I pronounce your name right, Andrew? OK. Very good.
    And Oregon State Representative Lew Frederick is here 
somewhere--right here. Thank you very much, and thank you for 
your service to our State. We're delighted to be here in your 
district and to be here in this wonderful facility, which, in 
itself, is part of the story about green jobs and the 
environment. We'll have testimony about that later.
    When you walk in the building, you don't necessarily think 
about all the pieces and components. But here we are in the 
site of a previous gas station converted into a set of 
marvelous contributions to the green economy.
    So in terms of how this hearing will go forward, we're very 
fortunate to have Governor Kitzhaber here, who will deliver the 
first testimony. After my opening remarks, he'll speak 
directly, and then we're going to go to the testimony of our 
witnesses.
    Thank you all very much for coming here.
    Each of our witnesses has a piece of the story about the 
environment and the green economy. And the Governor has to be 
back in Salem and will have to leave somewhere close to 10:45 
or 11, somewhere in there. So note in advance that he has other 
business he'll have to attend to.
    After the official hearing, please stick around if you 
would like to talk with the witnesses or have other questions. 
We'll have some unofficial time at the end.
    I'd also like to remind everyone that the Committee record 
will remain open for 7 days for statements and any other 
material that folks would like to submit.
    Creating good-paying jobs is one of the best ways to 
restore and strengthen the middle class. We've seen a 
tremendous loss in living wage jobs as manufacturing has 
changed. And, also, in this last recession, 60 percent of the 
jobs we lost were living wage jobs, and in the recovery, only 
40 percent are living wage jobs. So that is a part of today's 
conversation. And we're here to talk about how energy efficient 
investments not only result in lower energy bills and less 
carbon pollution, but create those good-paying jobs.
    I was in a meeting where former President Bill Clinton came 
in, and he spent 20 minutes talking about how low-cost loans 
for energy saving renovations were the best bang for the buck 
in creating jobs, because you can't outsource any of the labor, 
and the products that are utilized are made overwhelmingly here 
in the United States--90 percent-plus.
    I have two major bills in this area, the Rural Energy 
Savings Program, also known as Rural Star, and Building Star. I 
kept trying to send telepathic waves to the President for him 
to say, ``Two of those bills that encapture this concept are 
Senator Merkley's.'' But I didn't succeed.
    But one of those bills has now passed the Senate twice and 
has been in the House. And I'll be talking at the end of 
today's hearing about another concept, which is energy saving 
in the manufacturing process, for legislation that I'll be 
introducing.
    So we're seeing investments in energy saving across Oregon. 
Oregon is now a leader. In the second quarter of 2013, energy 
efficiency job postings totaled about 6,000 across the country.
    To be specific, these investments in energy efficiency 
support jobs in the construction industry, which is among the 
most labor intensive sectors and among the hardest hit sectors 
during this recent recession. The savings from the energy 
efficiency investments leave homeowners and businesses with 
more disposable income, which can be spent in other areas of 
the economy to stimulate economic growth and job creation. For 
businesses, this can also mean having more money available to 
hire more workers and become more competitive.
    Becoming more energy efficient does not have to be terribly 
painful. According to the Emily Hall Tremaine Foundation, their 
study on energy efficiency found that more than half the energy 
that we utilize in the economy is wasted, and, therefore, there 
can be a lot of savings that have short payback periods.
    A separate analysis found that the U.S. can reduce non-
transportation energy consumption by 23 percent without 
impacting our production ability. That alone would eliminate 
more than $1.2 trillion in waste. You can think of that as an 
injection of cash into our economy.
    Beyond the benefits of job creation and energy savings, 
energy efficiency also has the potential to significantly 
reduce greenhouse gas emissions at low costs. In fact, if all 
cost-effective efficiency measures were implemented in the U.S. 
within the next decade, we would save 1.2 billion tons of 
carbon dioxide equivalent, which is the equivalent of 18 
percent of the U.S. greenhouse gas emissions in 2012.
    Innovative efforts at the State and local level are helping 
to move the Nation forward. And Governor Kitzhaber has been a 
key leader in this area, from initiatives related to Cool 
Schools--he's a very cool man--to support for the Renewable 
Energy Portfolio Standard to the Small Energy Loan Program. But 
this issue, in terms of the goals of the State team in creating 
jobs and improving the environment and increasing savings--it 
all fits in.
    We will have many folks testifying after the Governor. I'll 
introduce them after his presentation.
    I really appreciate, Governor, your leadership and your 
participation in this whole effort.
    Thank you.

 STATEMENT OF HON. JOHN A. KITZHABER, M.D., GOVERNOR, STATE OF 
                             OREGON

    Governor Kitzhaber. For the record, I'm John Kitzhaber, 
Governor of the State of Oregon.
    Senator Merkley, I appreciate very much the fact that you 
brought the Subcommittee on Green Jobs and the New Economy here 
to Oregon, and I very much appreciate the opportunity to share 
with you and your colleagues in the U.S. Senate some of the 
things that are going on here in Oregon, because I think that 
suggests what's possible for the Nation.
    Clearly, to me, energy and climate are the issues of our 
time, not just globally but here in the Pacific Northwest. I 
can't think of two issues that will have a more significant 
impact on our Nation's economy, environment, and quality of 
life for the next few decades.
    So the central question is whether we are going to shape 
our own energy future through intentional development and 
policies and investment, or whether that future is going to 
shape us. And I think the urgency of answering that question is 
enormous, because the toll of our reliance on fossil fuel 
continues to grow.
    While I'll try to highlight this morning some of the 
successes we've had in Oregon, this State and the Northwest, 
along with, I think, our country, are still struggling to make 
the difficult transition from a 20th century energy 
infrastructure to new business models that can unleash the job 
creation potential of low-carbon innovation. And every day we 
wait, in terms of answering that question, we face the 
challenges of outdated energy and transportation 
infrastructure, trade wars that try to lock up the market share 
for the newest innovation in energy efficiency, and these 
heated policy debates about leveling the playing field for 
renewable energy.
    The fact is that we need to figure out a way to give 
entrepreneurs and investors the certainty that they need so 
that they can continue to innovate and continue to grow the 
green economy. As many of you know, and as Senator Merkley 
referred to, we have been undergoing a clean energy revolution 
here in the State of Oregon, a revolution in which energy 
efficiency is poised to meet 100 percent of new energy demand 
and in which renewable energy will constitute a larger portion 
of our energy resource portfolio.
    We've been working very diligently to try to de-carbonize 
our economy and reduce our dependence on foreign oil and 
polluting coal and developing, in the process, a host of home-
grown businesses and opportunities that are creating jobs, that 
are boosting our economy, that are reducing greenhouse gas 
emissions, and keeping the long-term cost of energy under 
control.
    With more regulatory certainty over the last few decades, 
billions of dollars have been invested in the State in energy 
efficiency, solar, wind, geothermal, biomass and wave energy, 
making Oregon a national leader in the sector. Oregon now has 
the most jobs per capita in the clean energy economy than any 
State in the Nation, and job growth in the clean energy economy 
is five times stronger than job growth in the overall economy.
    Last December, we released our State's Ten-Year Energy 
Action Plan. Goal number one of that plan is to meet 100 
percent of base-load growth through energy efficiency and 
conservation. Now, energy efficiency and conservation are 
clearly the least-cost ways to meet our State's growing demand 
for energy. That also will allow us to reduce the need for 
investing in new generation and transmission facilities, to 
create local jobs which, as the Senator said, can't be 
outsourced, and to save customers dollars on their utility 
bills.
    We currently rank fourth in the Nation in energy 
efficiency. Since 1980, households and businesses have realized 
energy efficiency and conservation savings that equate to about 
8 to 10 power plants. The result has been lower energy bills 
for residents, industrial consumers, and commercial consumers; 
a cleaner environment; and also--and I think this is very 
important--the development of a thriving local energy service 
industry that's beginning to export our expertise and our 
technologies around the world.
    Twenty-three thousand businesses have invested almost $2.5 
billion in energy efficiency, including lighting, heating, 
industrial processes, and other measures. In the Energy Trust 
of Oregon's territory alone, energy efficiency programs have 
saved about $1 billion for participants and created 2,500 jobs 
and spurred about $90 million in wages and business income 
growth, a very significant contribution to our economy in these 
difficult times.
    Nearly 425,000 people in Oregon have installed energy 
efficient appliances in their homes. In June 2011, we launched 
our Cool Schools program, which the Senator alluded to, which 
is an effort to audit and provide energy efficiency upgrades in 
every school district across the State. To date, that program 
has leveraged a very modest $185,000 State investment into $28 
million in energy efficiency projects, retrofitting buildings 
in 140 school districts across the State of Oregon.
    This program has identified another $120 million in shovel-
ready projects, and we estimate that the total opportunity for 
retrofitting our public schools is about $250 million. We have 
also launched a similar effort to retrofit our State-owned 
buildings. We call that the State Building Innovation Lab. In 
addition to that, the Oregon Department of Energy has 
identified 4 million square feet of commercial office space 
that is ready for retrofit.
    And as the Senator said, these create good middle class 
trade jobs. These create a local sourcing and a local supply 
chain in a ripple effect, so it's a tremendous economic 
multiplier in a time in which, as the Senator said, the 
recovery is not bringing back those well-paying jobs. There's a 
huge opportunity here to save money, to increase our energy 
independence, and to put people back to work.
    We do have some problems. Although the projects provide 
multiple benefits for our schools and for public buildings, the 
adoption rate has not been as rapid as we would have liked. 
There are some reasons for that. Seventy percent of our schools 
currently receive utility capital that can be used for energy 
efficiency and conservation. But in many of these districts, 
the really easily accessible projects, like lighting and 
windows, have already been taken care of.
    Now, while other States continue to struggle to develop a 
financing mechanism for energy efficiency, Oregon has long had 
that tool. And, as the Senator mentioned, it's called the Small 
Energy Loan Program, or SELP. Over the last 30 years, SELP has 
financed over $580 million of energy efficiency projects in the 
State. Yet for many of the school districts that are facing 
really tough financial circumstances, even the low interest 
rates that are offered by the SELP program continue to 
constitute a barrier.
    I believe, however, that a very modest infusion of capital 
could launch a significant wave of new projects that would help 
our schools and other public buildings and save us money. So to 
help reduce the cost of capital to retrofit these public 
schools and buildings, our goal is to identify and incorporate 
resources and capital from the Federal Government, from the 
State government, from community foundations and other entities 
that are interested in energy efficiency.
    These investments, in addition to the dollars that we're 
already spending, have a very positive impact on our State's 
economy and also provide a pathway to really speed up and ramp 
up energy efficiency across our entire environment. I think 
this is a significant opportunity for the State to partner with 
the Federal Government to leverage our shared resources and 
really unleash the next wave of high value energy efficiency 
projects.
    In addition to energy efficiency and conservation, it's 
also important that we focus on incubating and commercializing 
the next wave of clean energy technologies. For example, last 
session, the Oregon legislature increased Oregon's energy 
efficiency standards for appliances, including battery 
chargers, set top boxes and televisions, to meet those of 
California and British Columbia. And we're working with 
Governor Inslee to bring Washington on board, the idea being to 
harmonize energy efficiency standards for appliances along the 
West Coast, which I think will dramatically change the market 
of what is now the seventh largest economy in the world.
    Also in the last session, the legislature continued funding 
the Oregon Innovation Council, or Oregon InC, as we call it, 
which is dedicated to the global competitiveness of Oregon 
industries by helping innovators create high-paying jobs, 
entrepreneurs create new companies, and university researchers 
attract Federal and private research dollars into the State of 
Oregon.
    To date, Oregon InC has been a huge success story. They 
have created 30 new companies that are marketing innovative 
products, captured $350 million in Federal and private research 
grants, and raised $115 million in private capital to support 
these companies. Many of the efforts of Oregon InC are related 
to advanced energy applications in energy efficiency, 
transportation, and generation. So it plays a very, very 
central role, and other States might want to look at that to 
significantly take these breakthroughs and commercialize this 
critical technology, which helps build Oregon's new innovation 
economy.
    As I mentioned earlier, these new companies that have 
developed through this effort are actually beginning to export 
their technologies and their expertise abroad. So it's 
important to remember that the jobs and economic activity we 
create at home actually supports our traded sector industries, 
not just in manufacturing and technology, but also in things 
like architecture and green building, for which Oregon is 
increasingly becoming a global leader.
    We're also seeing the effects, as Senator Merkley pointed 
out, in the production process, in the industrial process. In 
the food processing industry, for example, that cluster has 
been able to significantly reduce front-end costs by 
dramatically increasing their energy efficiency.
    So, Senator Merkley, those are just a few examples of the 
good work that's going on here in the State of Oregon. While 
Oregon may be a relatively small State, I am convinced that it 
can be an extraordinarily important innovative State.
    I'm very thankful that Oregonians recognize clean energy as 
the economic engine that it is. I also believe that Oregonians 
recognize that to fully emerge from the economic downturn, 
we're going to have to be very, very bold about our vision for 
the future. We know that there are no quick fixes to these 
challenges, but having the courage and the discipline to think 
ahead about where we want to be a decade from now, with 
economic opportunity for everyone, with responsible stewardship 
of our financial, human, and natural capital--that is the first 
step to actually getting there.
    So let me just end my remarks this morning with the way I 
started, with a question. And I think the central question 
still remains, whether this State, whether this Nation, will 
shape its own energy future, or whether that future will shape 
us. As William Jennings Bryan once said, destiny is not a 
matter of chance. It's a matter of choice. It's not a thing to 
be waited for. It's a thing to be achieved.
    I am confident, with the leadership of Senator Merkley and 
his colleagues in the U.S. Senate and the many good people here 
in Oregon, that we are going to make our energy future a matter 
of choice, not a matter of chance. And I am confident we will 
choose a pathway that leads to a bright, prosperous, and low-
carbon future.
    Thank you.
    [The prepared statement of Governor Kitzhaber follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Merkley. Thank you so much, Governor, and embedded 
throughout your comments was a perspective that often we hear 
the opposite of. We hear folks believing that the economy and 
the environment are at war with each other. But, really, what 
we're talking about here is how good environmental policy 
becomes very good economic policy as well. So thank you so much 
for all your work.
    I'm going to proceed right into the introductions of our 
folks who have come to testify. We're going to ask everyone to 
stick to the time limit. The Governor would like to hear as 
much of the testimony as possible before he has to depart. So I 
will jump right in. I'm going to do all of the introductions at 
once, and then we can just proceed from one panel member to 
another.
    Andrew Colas is President and COO of Colas Construction. 
Andrew joined Colas in 1999, serving as an apprentice to his 
father in the field. A northeast Portland native and lifelong 
community activist, Andrew works tirelessly to promote 
investment and job creation in underserved populations through 
his role at Colas, the Colas Foundation Fund, and various 
boards and many community organizations.
    Derek Smith is CEO of Clean Energy Works and has been in a 
leadership role in triple bottom line ventures for more than a 
decade, with experience in the public, private, and nonprofit 
sectors. Prior to Clean Energy Works Oregon, he was Policy 
Advisor for city of Portland's Bureau of Planning and 
Sustainability. In the late 1990s, Derek developed one of the 
first sustainability programs in the retail world at $225 
million multi-channel retailer Norm Thompson Outfitters.
    Berenice Lopez-Dorsey is the founder and owner of Home 
Energy Life Performance Group and founding member of the Home 
Performance Contractors Guild of Oregon. After owning a general 
contracting business for years, Berenice became fully involved 
in weatherization services and now contributes to the success 
of a variety of energy use reduction programs in the region.
    Sary Dobhran is an Energy Auditor and Home Performance 
Technician for Home Energy Life Performance Group. Sary 
graduated from the University of Oregon in 2003 with a degree 
in environmental studies. She later enrolled in an 
apprenticeship program with Oregon Tradeswomen, Inc., and 
picked up the skills she needed to work in the budding energy 
efficiency sector.
    Casey Barnard is Project Director in Portland for the 
Emerald Cities Collaborative, a national nonprofit network of 
organizations working together to advance a sustainable 
environment while creating greater economic opportunities for 
all. Casey operates as a convener, facilitator, and project 
manager and is a long-time advocate for social justice, 
environmental justice, and sustainable economic and community 
development.
    Tia Vonil is a second year electrical apprentice from 
Portland who worked on the Edith Green-Wendell Wyatt Federal 
Building retrofit. Tia entered the IBEW Local 48 apprenticeship 
after graduating from Oregon Tradeswomen's pre-apprenticeship 
program.
    Kenneth Cox has served as the Superintendent of the 
Vernonia School District since June 2006. Ken has over 31 years 
in public education, 26 of those in Oregon, and helped lead the 
Vernonia School District through the aftermath of the December 
2007 flood. In response to the flood, he participated in the 
Oregon Solutions Project to help find a new location for 
Vernonia schools out of the flood plain. Architects designed a 
new sustainable K-12 school which serves as a model for a 
single building design for smaller districts across the Nation.
    Each of our witnesses will give a unique perspective of how 
energy efficient investments are helping small business, 
creating jobs, and saving homeowners and businesses money on 
their energy bills.
    Mr. Colas, you're up first.

   STATEMENT OF ANDREW COLAS, PRESIDENT AND CHIEF OPERATING 
               OFFICER, COLAS CONSTRUCTION, INC.

    Mr. Colas. Well, thank you very much, Senator Merkley and 
Governor Kitzhaber. I'm very honored to be here today. First 
and foremost, I'd like to thank the members of the Delta 
sorority chapter here in Portland for hosting this event here.
    This building is very near and dear to our hearts. We had 
the opportunity to construct this project over 2 years ago, and 
it was just a great opportunity. So I'm going to tell you a 
little bit about our company and about what green jobs and 
opportunities mean to companies like ours.
    Colas Construction is a second generation family owned 
business. My father, Hermann Colas, founded the business over 
16 years ago, and I am currently the president of the company. 
We've always prided ourselves on being a company that strives 
to inspire individuals and communities through exceptional 
construction, community involvement, the hiring of a diverse 
qualified workforce, and promoting sustainability while 
maintaining a positive family structure.
    When the opportunity arose for Colas Construction, 
Incorporated, to be involved in the construction of the June 
Key Delta Center, we were thrilled. We could not have imagined 
a project that better represented our mission. The goal of the 
project was to convert a former brownfield gas station into one 
of the first living buildings in the State of Oregon.
    In order to achieve this goal, the project incorporated a 
myriad of sustainable features, which included but were not 
limited to: incorporating cargo containers into the design of 
the building; reusing the existing roof structure; providing a 
solar panel ready system--and I'm excited to see that we're 
getting those solar panels installed; a high efficiency heat 
exchange and heat cooling system; a grey water reclamation 
ready system. All the products had to be sourced within 200 
miles of the site.
    The storm water system was designed to keep all storm water 
onsite. And there was an extremely high efficiency insulation 
system. A lot of the different products throughout the building 
were products that were reused or recycled from other 
buildings. So the incorporation of those products was a big 
part of the design as well.
    The project design and implementation was tremendously 
technical, making the sourcing of the subcontractor base very 
important. In an effort to reduce the risk to exposure, a lot 
of general contractors would have used the highly technical 
design as an excuse to hire only the largest subcontractors in 
town. In contrast, our team saw this project as an opportunity 
to achieve true sustainability, which includes a multi-faceted 
focus on social, economic, and environmental impacts to our 
community.
    We look at sustainability as being something that betters 
our communities. If you're not including every member of your 
community, you're really not truly sustainable. So we looked at 
this project as an opportunity to be truly sustainable.
    The project was built during the height of the recession, 
which meant that several small businesses were not being 
granted opportunities to work. The Colas ownership team and the 
Delta team saw this project as an opportunity to really have an 
impact on our community. We agreed that if we truly wanted to 
achieve a sustainable building, we had to have a positive 
impact on the surrounding small businesses.
    As such, we designed a contracting plan to insure that more 
than 50 percent of the dollars spent on the June Key Delta 
project would be awarded to minority, women, or small 
businesses. In addition, we provided for pre-apprenticeship 
opportunities through programs such as the Oregon Tradeswomen, 
so more communities could gain exposure and experience through 
this highly technical project.
    This project not only provided work opportunities for 
several local small businesses, but it also helped to enhance 
their resumes so they might be better considered for future 
projects. Too often, the highly technical nature of green 
projects can have the unintended impact of limiting 
opportunities for small businesses simply because they don't 
have the resume experience to initially qualify.
    Our team's goal was to achieve true sustainability through 
a dedicated pursuit of a triple bottom line. Today, I'm proud 
to say that this project created jobs for several small 
businesses around the local community, and it helped to grow 
their portfolios in a way that will allow them to seek future 
opportunities to work on projects similar to the June Key Delta 
project.
    This is not only a building that created jobs. It's a place 
that now is nationally recognized as a neighborhood space for 
the community. This is just, to me, the epitome of what 
sustainability is, when you create opportunities for all those 
around and you don't create barriers so that people can get to 
work.
    I think that's the most important thing that we have to 
look at when we're really looking at sustainability, and 
sometimes that can be forgotten in the myriad of technical 
aspects of these buildings. That's something that, without an 
ownership team like the Deltas, I don't think we would have 
been able to accomplish. So it starts with the owners and then 
working with a team that really believes in achieving true 
sustainability.
    Thank you very much for the opportunity to speak here 
today.
    [The prepared statement of Mr. Colas follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Merkley. Thank you so much. I appreciate your 
comments, and I also think it's very cool that the solar panels 
are going up. But today, construction was paused so we wouldn't 
be hearing machinery on the roof as we were holding this 
hearing. And I know the leadership of the chapter is here, and 
they're very proud, as they should be, of this building and 
this phenomenal undertaking.
    Representative Jules Bailey is here, I believe. Yes. Good 
to have you, Jules.
    Representative Bailey was very involved in the creation of 
Clean Energy Works strategy. It was a fair number of years ago 
now that we stood in a driveway during a rain storm, or at 
least a drizzle, an Oregon rain storm, and talked about the 
need for low-cost loans at the State level and at the Federal 
level, and Representative Bailey helped drive that program 
through.
    So well done, and it's good to have you today.
    Mr. Smith.

STATEMENT OF DEREK SMITH, CHIEF EXECUTIVE OFFICER, CLEAN ENERGY 
                          WORKS OREGON

    Mr. Smith. Senator Merkley, Governor, for the record, my 
name is Derek Smith. I'm CEO of Clean Energy Works Oregon. I 
really sincerely thank you for the opportunity to speak to you 
this morning.
    And thank you, Senator Merkley, for your leadership on 
clean energy and economic development in Congress.
    Clean Energy works as a nonprofit public-private 
partnership. Our mission is to create jobs and reduce energy 
waste through the facilitation of deep home energy retrofits. 
We coordinate and deploy public, private, and utility dollars 
to scale up the residential energy efficiency sector. And it's 
this aggregation and optimization of different sources of 
capital that are really critical to moving forward to the 
future that we want to shape.
    We were founded 4 years ago as a city of Portland pilot 
project seeded with Recovery Act dollars. I am here to report 
that this smart Federal investment, which you helped support, 
Senator Merkley, is proving that residential energy efficiency 
can create quality jobs and unlock private capital to create a 
vibrant and growing marketplace.
    To date, our statistics include over 10,000 Oregonians who 
have signed up and had their homes audited for energy 
efficiency potential; 3,200 homes upgraded in rural, urban, and 
suburban communities throughout the State; a 30 percent average 
energy savings per home, which has resulted in more than $1 
million put back into the pocketbooks of Oregonians instead of 
being spent on energy waste.
    As for jobs, we know through our work that for every 10 
homes upgraded, one job gets created. To date, we've enabled 
nearly 1,300 workers to receive paychecks through Clean Energy 
Works; 377 new hires in the hard-hit construction industry; $21 
an hour average wages across multiple trades, from 
weatherization to plumbing to electrical to HVAC; 56 percent of 
work hours performed by women and people of color; 36 veterans 
working on projects; 
$62 million in economic development. All of these numbers are 
continuing as we move forward.
    Before we began our work in 2009, this market was 200 homes 
per year throughout the entire State being upgraded for deep 
retrofits, and workers were paid piece-rate wages averaging 
around $9 an hour. We are now lifting people out of poverty, 
off of public assistance, and into career pathway professions.
    How do we generate these numbers? First, it's our partners 
in the community. I want to sincerely thank several folks who 
are here today, Connie Ashbrook, Barbara Byrd, Tony DeFalco, 
Maurice Rahming, who serves on our board, and many, many others 
in the community, and our contractors, like Berenice and Peter 
Tofalvi from Abacus. It's really them that are helping us move 
this forward.
    Second, it really comes down to making it easy for citizens 
to upgrade their homes for energy efficiency. It's a very 
complicated process. The way the Clean Energy Works program 
works for a homeowner is that they sign up at our Web site, and 
we arrange for an assessment of their home and then pair them 
with a vetted contractor. A scope of work is drafted and agreed 
upon by the contractor and homeowner. We arrange financing from 
a local lender, and then we provide quality control and 
customer service throughout the project.
    Currently, more than 200 contractors throughout Oregon are 
growing their businesses in the program, including 40 prime 
contractors like Berenice. Her company, H.E.L.P. Group, which 
employs excellent workers like Sary, is one of our best.
    Multiple private lenders are providing unsubsidized 
financing in Clean Energy Works. We use some Federal money to 
create credit enhancements that unlock that capital, and that 
capital is now flowing into the marketplace. The only thing 
that's holding back that capital from moving is demand, and 
demand is helped by supporting these programs to move forward.
    These lenders include several credit unions, a regional 
bank, and a community development financial institution. Loan 
products include unsecured, home equity, and on-bill, meaning 
customers can pay back their loans on their utility bills. I 
want to thank Sunny and PGE for being very productive members 
on the on-bill repayment efforts, as well as Northwest Natural 
and Pacific Power. So private investment is happening, spurred 
on by smart public investment.
    As we look to our future, Clean Energy Works is moving 
beyond stimulus and into a self-sufficient business model, an 
innovative business model where we earn fees for the service we 
provide to homeowners, contractors, lenders, and utilities. The 
State of Oregon is providing follow-on investment, and I want 
to thank Representatives Bailey and Frederick for supporting us 
through the session.
    I would also like to thank you, Governor Kitzhaber, for 
your leadership on the 10-year energy plan, and for your 
commitment of going forward funding for Clean Energy Works.
    We are also looking to build off of the platform we built 
with public dollars so that we can integrate energy efficiency 
improvements along with seismic upgrades, radon mitigation, 
storm water conservation, electric vehicle infrastructure 
upgrades, and more--more jobs, more investment, and more homes 
that are safer, healthier and more comfortable for our 
citizens.
    Thank you very much for your support.
    [The prepared statement of Mr. Smith follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Merkley. Thank you.
    Ms. Lopez-Dorsey.

  STATEMENT OF BERENICE LOPEZ-DORSEY, OWNER, HOME ENERGY LIFE 
                    PERFORMANCE GROUP, INC.

    Ms. Lopez-Dorsey. Thank you, Senator and Governor, for 
being here and for your time this morning. My name is Berenice 
Lopez-Dorsey. I am a founder of a small remodeling company, 
Move In Ready, LLC, and Home Energy Life Performance Group, 
also known as H.E.L.P. Group, Incorporated.
    Our company was born from a desire to build an organization 
that encompasses green job values, assistance to homeowners, 
and skilled jobs with a long-term future. Home Performance 
incorporates all three and includes building science education 
and certification for employees.
    I am an immigrant. I was born and raised in Oaxaca, Mexico, 
the youngest of nine children. My father supported us by 
fishing while my mom took care of us. Growing up with very 
little in a very large family, I learned self-reliance. My 
parents taught us the importance of hard work, commitment, and 
the value of integrity and respect, all of which became the 
core to the foundation of my businesses now.
    My story developed in Mexico 21 years ago, when I met my 
husband, a very nice gringo, fell madly in love, and moved to 
the U.S. and married him. Nine years later, I proudly became a 
U.S. Citizen, and I am still married. For me, our country truly 
is the land of opportunities, where I was able to work, to 
learn new social and economic roots, and finally to start a 
successful business out of necessity, having to support my 
family after my husband became disabled in 2001.
    I want to stress how important political understanding and 
support is to this process. The concept that anyone can 
conceive a startup, grow a profitable business, and provide 
long-term employment is symbolic of the American Dream. I am 
not saying it is easy. A lot of sacrifices have to be made 
along the way, for example, myself having to work 7 days a 
week, long hours, missing my daughter's soccer games to secure 
the next sale, draining my personal bank account to make 
payroll because clients don't pay on time.
    But if you ask me today, ``Is it worth it?'' and ``Would 
you do it all over again?'', my reply would be, ``Absolutely,'' 
although sometimes I have my doubts. The simple fact is that 
job creation is so possible in our Nation, especially in 
Oregon, where energy conservation has always been in favor, 
meaning you can dream in green. I and my entire team take pride 
in helping Oregon families to enjoy healthy, more comfortable 
homes and lower utility bills.
    By the end of this year, H.E.L.P. Group, Incorporated, will 
have created 20 full-time positions and mentored four other 
Home Performance contractors, generated over $7 million in 
energy retrofit sales, and reduced the energy consumption for 
more than 800 Oregon homes by an average of 34 percent. That's 
800-plus Oregon families who now live in more comfortable homes 
with indoor air quality, healthier and safer houses, and who 
have more cash in their pockets as a result of lower energy 
bills.
    We also consistently provide work for more than a dozen 
subcontractors, who at some point were employees of either 
H.E.L.P. Group, Incorporated, or Move In Ready, LLC. Creating 
that ripple effect, these subcontractors are now generating 
additional reciprocal business.
    In addition, we rely on more than 20 local businesses for 
truck maintenance, equipment, signage, marketing, advertising, 
and the list goes on and on. H.E.L.P. Group spends hundreds of 
thousands of dollars per year on fundamental products like 
windows, insulation, appliances, and machinery.
    Now, I'd really like to tell you about the journeys of a 
couple of our team members. These are people I really want you 
to know about, because their transformation is a direct result 
of our ability to create jobs in a green and growing industry, 
where a trade can be learned and a promotion can be earned.
    I met Rodrigo, Jr., through his father, Rodrigo, Sr., who 
has been employed by me for 11 years through Move In ready, 
LLC, a sister company to H.E.L.P. Group. He had been released 
from prison in early 2011. In fact, he had actually reached 
adulthood while incarcerated. He had no skills and little 
ambition. I saw a strong and bright young man, and I believed 
that he had the potential to learn and master a trade. He 
needed an opportunity to contribute to a growing business who 
needed him right back.
    Today, Rodrigo, Jr., has earned his OSHA-30 certificate, 
his Lead-Safe Renovation certificate, and is a qualified 
Weatherization Installer. Today, he is a young father 
supporting his family and is playing a happy role in our 
community.
    Yulma is another, now a success story. Unfortunately, she 
was abused in her marriage. As a single mother of two, with no 
personal resources, it was unthinkable to consider leaving her 
marriage, even to escape abuse, until a job opening with Move 
In Ready, LLC, a growing company back in 2002, gave her the 
encouragement and opportunity she needed.
    Today, Yulma manages her own work schedule, directs others, 
and supports her 13-year-old daughter and 10-year-old son.
    I am thrilled that you will get the opportunity to also 
hear Sary's story, another team member who is also testifying 
here today.
    Like Rodrigo, Yulma, and Sary's stories, our company 
philosophy is to create the opportunity, invest in training, 
and fully support employee growth without micromanaging. We 
have found that within that environment, employees thrive and 
businesses profit.
    We still need your help. We have come a long way, but our 
industry continues to need political understanding of our 
mission and goals, support for programs, and legislation that 
advances home energy efficiency.
    Oregon's home performance industry is a leader in green job 
development, career-sustainable jobs with advancement 
potential, resulting in a skilled labor force with family 
supporting wages. Where once the industry consisted of single-
skilled, low-earning workers, together we have created a labor 
force of multi-skilled professionals who have elevated the 
value of energy efficiency in Oregon. And I am really proud to 
be part of it.
    Thank you.
    [The prepared statement of Ms. Lopez-Dorsey follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Merkley. Thank you so much. And as you indicated, 
we will now hear from one of your contractors or employees, Ms. 
Sary Dobhran.

STATEMENT OF SARY DOBHRAN, ENERGY AUDITOR AND HOME PERFORMANCE 
         TECHNICIAN, HOME ENERGY LIFE PERFORMANCE GROUP

    Ms. Dobhran. For the record, my name is Sary Dobhran. I'm 
an Energy Auditor and Home Performance Technician for 
Berenice's company, Home Energy Life Performance Group. I can't 
tell you what an honor it is to be a part of this roundtable. 
My journey with my Environmental Studies degree tells me that 
if I'm here today, then I must have done something right and 
decided to share my story if it's going to help the movement. 
So this is more or less a bio.
    If you had told me in 2003, when I graduated with honors, 
that 4 years later I would be a single mom on welfare, I would 
have thought you were crazy. I was an emancipated young woman 
who had just completed a 4-year degree at the University of 
Oregon. I worked two jobs, studied full time and through the 
summers, because I was going to be the first person in my 
family to obtain a college education. I was going to be 
somebody.
    I wanted to improve people's quality of life. My 
Environmental Studies degree was going to help people live more 
naturally and prevent disease and unemployment, rather than 
simply treating symptoms. I studied all of the world's problems 
and a lot of solutions that really exist and are happening 
every day.
    I found it hard to get a job in my field at that time, so 
did my own environmental studies of Los Angeles, San Francisco, 
Turin, Italy, and, coincidentally, Oaxaca, Mexico. I learned 
two new languages, opened my eyes wide, tutored the head of 
energy in Turin, Italy, translated engineering documents for 
high speed trains, translated for international anti-
globalization conferences, installed $50,000 of sustainable 
landscapes, participated in Eco building projects with the 
Zapotec Indians, and always wondered what I could do in my own 
country.
    In 2007, I returned to the U.S. from Mexico because I was a 
widow and expecting my first child. I did everything I could to 
find work, even if I had to wear the baby on my back, but there 
weren't even jobs to fight over. I moved back to Portland in 
2010 where I hoped I could get back on my path. I had a lot of 
interviews for 6 months, but I was one of hundreds and 
sometimes thousands of applicants, sometimes over-qualified or 
not qualified enough.
    In my free time, I studied the Portland Plan and all the 
major players in the area of sustainability. When I learned 
about the Oregon Tradeswomen, a nonprofit that helps women 
prepare themselves for jobs in the trades, I knew that it was 
going to lead to something. My welfare counselor, persuaded by 
my passion, made an exception and approved it as an 
apprenticeship.
    I learned about the field of weatherization during that 
course, and I immediately knew it would marry my skilled 
background with my degree. Although I started out under the 
bus, or mobile home, rather, trained in low-income 
weatherization, it was a step in the right direction. I 
obtained a green career counselor at Native American Youth and 
Families, applied for the Pathway out of Poverty grant through 
Worksource, and was hired by a nonprofit Clean Energy Works 
contractor.
    I was drawn to this career because I saw that I could only 
go up. In the next year, I gained priceless experience in my 
trade and all the certificates I needed with the Building 
Performance Institute to work as a Residential Energy Analyst. 
I now inspect homes and rate their energy efficiency and test 
their combustion safety and educate clients.
    All of my training was paid for by that grant. My current 
employer, H.E.L.P., has taught me how to generate home 
performance reports, make recommendations, and bid jobs. They 
also recently invested in me becoming certified to perform 
radon testing and mitigation, something that will bring them 
more business and me more growth and opportunity.
    I like to speak for the unemployed because, to me, they are 
not just a statistic. They are the faces I saw every week in 
the unemployment line and in group interviews and job fairs. 
Some of us had college degrees and excellent employment history 
and several interviews a week with no success.
    I would not be here today without the programs and 
organizations that create jobs and help the unemployed find 
their path to becoming productive, self-reliant members of the 
community.
    [The prepared statement of Ms. Dobhran follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Merkley. Thank you. Thank you for sharing your 
story and congratulations on your success.
    Ms. Casey Barnard, Project Director, Emerald Cities 
Collaborative.

 STATEMENT OF CASEY BARNARD, PROJECT DIRECTOR, EMERALD CITIES 
                            PORTLAND

    Ms. Barnard. My name is Casey Barnard, and thank you very 
much for your invitation to participate in today's field 
hearing. I am Project Director for Emerald Cities, and we are 
part of a national Emerald Cities Collaborative, which is a 
coalition of organizations working together to retrofit 
building stock, create high-wage jobs, and revitalize local 
economies.
    Today, I would like to speak with you about the Edith 
Green-Wendell Wyatt Federal Building Modernization Project in 
Portland, Oregon. Emerald Cities Portland helped to spearhead 
the Edith Green Workforce Mapping Project, including research 
on construction workforce demographics, union apprenticeship 
and community training programs, and activities to recruit and 
retain a diverse workforce.
    The Edith Green Project involved the renovation of the 
General Services Administration's Edith Green Building to 
create a high performance green building consistent with the 
American Recovery and Reinvestment Act. The project was 
completed in May 2013 and is a great example of leveraging 
strong Federal investment to create lasting environmental and 
financial savings for the government, as well as good green 
jobs for the community.
    The 536,000 square foot Edith Green Project will provide an 
office building that will outperform all but the top few 
percent of office buildings in the country. The new building is 
projected to achieve 55 percent energy savings and 60 percent 
water savings over the original building.
    The Edith Green Project was funded through the American 
Recovery and Reinvestment Act and employed more than 90 
companies and 764 workers. These jobs created opportunities for 
new workers through the utilization of apprentices and 
historically underserved workers. This included 19.8 percent 
apprentice participation, 17 percent minority craft worker 
participation, and 7.7 percent female craft worker 
participation.
    In addition, $26 million in subcontracts also created 
opportunities for disadvantaged business enterprises and small 
businesses. This included 24 percent minority owned businesses 
and 12 percent women owned businesses.
    The GSA also piloted the use of a project labor agreement, 
otherwise known as a PLA, on the Edith Green Project. PLAs are 
pre-hire collective bargaining agreements with labor 
organizations, and they are intended to provide structure and 
stability and promote the efficient completion of construction 
projects by forecasting workforce needs, resolving disputes, 
and ensuring coordination among employers and labor unions.
    This proved to be more than accurate on the Edith Green 
Project. The PLA established fair working conditions and family 
supporting wages, and an oversight committee created open lines 
of communication and allowed the project to be completed on 
time and on budget.
    The Edith Green PLA also established the community fund to 
support education activities and the Workforce Mapping Project. 
Emerald Cities spearheaded that project along with CAWS, 
Constructing Hope, Oregon Tradeswomen, Portland Community 
College, Portland Youth Builders, and the Urban League.
    The Workforce Mapping Project included interviews with 
construction trade unions, collaboration between community-
based organizations and unions, a construction career guide for 
use in high schools, and assessments of demographic data and 
barriers to success for women and people of color. The project 
really highlighted the benefits of early community engagement 
by owners and contractors on large construction projects.
    Overall, the Edith Green Project really successfully 
leveraged strong Federal investment to create lasting 
environmental and financial savings as well as good jobs for 
community members.
    I would like to close by making a point about green jobs, 
in general. These green jobs are closely tied to the 
traditional construction trade and union infrastructure, 
allowing workers to use their existing skills and 
certifications, supplement their knowledge with green 
techniques and technologies, and continue to build strong 
careers that will be relevant for many decades to come.
    I want to thank you, Senator Merkley, the Governor, and the 
Committee for the opportunity to speak today and tell the Edith 
Green story. The Emerald Cities Collaborative really welcomes 
the opportunity to work with you and your colleagues to insure 
greener, more sustainable and reliant communities.
    And Tia will now speak a little bit about her personal 
experience on the project.
    Thank you.
    [The prepared statement of Ms. Barnard follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Merkley. Thank you.
    Tia, before you begin, the Governor has to head for Salem, 
so he has a few comments before he takes off.
    Governor Kitzhaber. Tia, I'm going to get a copy of your 
testimony because I've been anxious to hear it. I'm sure you 
have a wonderful story to tell.
    I just wanted to very, very briefly say that one thing 
Andrew mentioned was the triple bottom line. When you think 
about the economic bottom line and the environmental bottom 
line, there's a social bottom line as well.
    I'm struck that the First Lady is spending a lot of time 
working on the issue of poverty, and she talked to an 
unemployed young man not too long ago and said, ``How can there 
be so much unemployment when there's so much work that needs to 
be done?'' And we have a Nation that has so much capital 
sitting on the sidelines, and there's so much work that needs 
to be done. Part of it, we're talking about today, keeping our 
forests healthy, taking care of the elderly at home, a whole 
host of things.
    I think what you're a part of here today and what the green 
building and the green energy and the energy efficient movement 
really is about is trying to deploy the great wealth of this 
Nation, putting people to work at jobs that actually makes 
society better and builds families and builds communities. So I 
thank you all for your commitment, for all you're doing, and, 
certainly, Senator Merkley, for your tremendous leadership on 
this. I'm honored to have been able to participate today.
    Thank you very much.
    [Applause]
    Senator Merkley. Thank you very much, Governor. I know that 
finding time in your schedule to do any gathering like this is 
challenging and just reflects on your commitment to energy and 
the environment and the economy.
    Ms. Tia Vonil, electrical apprentice, Oregon Tradeswomen.

     STATEMENT OF TIA VONIL, ELECTRICAL APPRENTICE, OREGON 
                       TRADESWOMEN, INC.

    Ms. Vonil. Mr. Chairman and members of the Committee, thank 
you for your invitation to participate in today's field 
hearing. My name is Tia Vonil, and I am a Local 48 second year 
electrical apprentice. I have greatly benefited from 
participation in the incredible nonprofit organization, Oregon 
Tradeswomen, as well as the opportunity to work on the 
federally funded Edith Green-Wendell Wyatt Modernization 
Project.
    Before I began a career in the trades, I attended an elite 
university, joined the Navy via the United States Naval 
Academy, and traveled the world. Soon after I began college, I 
realized that the traditional path of university education was 
not for me. I desired a more independent, hands-on education 
where I could achieve tangible, practical results, rather than 
a theoretical degree in a major that would leave me few post-
graduate job options and a mountain of debt. I also had trouble 
accepting a life in the Navy back during the dark ages of Don't 
Ask-Don't Tell.
    After living abroad for nearly 10 years, I returned to the 
U.S. with the dream of a career in the electrical field. When 
trying to access this path in France, I encountered systematic 
blockades based on my gender.
    In comparison, after returning to the U.S., at my local 
electrician's union, the application process was transparent 
and straightforward. I was excited to begin, but knew little 
about the intricacies of the electrical trade.
    Walking in my neighborhood in northeast Portland, I 
serendipitously stumbled upon an organization called Oregon 
Tradeswomen, a community-based nonprofit dedicated to promoting 
success for women in the trades. I signed up for the Trades and 
Apprenticeship Career Class, a free, 5-week pre-apprenticeship 
training class that helps women prepare for a high skilled 
career in construction. During the class, I learned skills that 
prepared me for a successful apprenticeship and introduced me 
to green collar career opportunities.
    Programs like OTI that benefit from Federal grants are 
crucial to the success of women in the trades, because they 
expose women to areas of expertise that they, unfortunately, 
are not normally exposed to. The work of this organization 
helps diversify the construction workforce, provides 
alternative perspectives, and encourages green building 
technologies and employment opportunities. I am proud to now 
sit on the board of this organization and work to help women 
excel in the trades the way they supported and helped me.
    As a Local 48 apprentice, I earn while I learn, and the 
training is paid for by the union. I get experiential as well 
as classroom education, and the career is active and rewarding, 
where the sites and tasks are ever changing. The Edith Green 
Project was a significant part of my training because it was my 
first project as an electrical apprentice.
    On the Edith Green Project, I performed standard electrical 
tasks such as wiring and conduit installation. This project 
also introduced me to energy saving installations and instilled 
in me an ever-present sensitivity to green electrical 
practices.
    As someone in the trenches, I can tell you that it is 
imperative that our government continue to invest in green 
building projects like Edith Green. This project was important 
because it was a stellar example that, contrary to common 
thought, commercial buildings can be energy efficient. The 
Edith Green Building also put skilled tradesmen and tradeswomen 
who had been laid off back to work and is reminiscent of 
successful public works projects in America's history that 
revitalized an idle workforce.
    Since the Edith Green Building, I have been on several 
other green projects, including two newly constructed 
commercial LEED buildings. I have also worked on solar powered 
highway signs in Astoria and electrical vehicle charging 
stations in Clackamas.
    I strongly believe in the importance of green construction, 
and I look forward to more experience doing green electrical 
work. I know that the more training and experience I accumulate 
in this field, the more I can contribute to an increasingly 
energy resilient America.
    There is more work to be done, and Federal investments are 
essential to the task. Skilled tradesmen and tradeswomen across 
the country, like myself, are standing by, ready to build.
    I want to highlight the importance of coalitions of labor, 
community, environment, and government, such as the Emerald 
Cities Collaborative. These coalitions help to promote 
construction projects that pay living wages and benefits, while 
supporting the environment and an equitable workforce.
    I would like to close by thanking U.S. Senator Merkley and 
this Subcommittee for the opportunity to share my story. I hope 
that my personal testimony gave you insight into the worker's 
perspective on how green jobs support and enhance this new 
generation of the American construction industry.
    [The prepared statement of Ms. Vonil follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Merkley. Thank you very much, and it does give 
insight. I appreciate it very much.
    To shift from one green project, the Edith Green, to 
another project, the new school in Vernonia, we're so delighted 
to have Dr. Kenneth Cox, Superintendent of Vernonia School 
District.
    Welcome.

   STATEMENT OF KENNETH COX, PH.D., SUPERINTENDENT, VERNONIA 
                SCHOOL DISTRICT, STATE OF OREGON

    Mr. Cox. Thank you, Senator. We appreciate the opportunity 
to meet with you today, for this invitation. I'd like to thank 
you, the Governor, and our elected representatives for your 
ongoing support of the Vernonia project.
    In December 2007, a winter storm stalled over the Oregon 
coast, and 11 inches of rain fell in 24 hours. It inundated our 
schools with 3 to 5 feet of water, and they were only 100 yards 
from the sewer lagoons, and so the water was tainted. We 
survived that. It was considered a flash flood. The next day, 
everything was all gone except for a thin layer of silt 
throughout the school. All three of our schools were flooded.
    As the result of an Oregon Solutions Partnership that 
Governor Kulongoski put together the following spring, we were 
able to find a location for a new school. And in September of 
last year, our students attended school there for the first 
time. The new school is 135,000 square feet. It was much larger 
initially, but we said we can't build that big of a school. We 
have to consolidate multi-use areas, and they were able to 
redirect the design.
    As I met with the architects prior to the building, we used 
the term, sustainability, over and over again, because the 
community had been flooded 10 years earlier. At that time, the 
water didn't recede for 3 days. They wiped down the walls and 
went back to school a couple of months later. We found some 
results of that when we tore the walls down in 2007.
    But the idea was that if we're going to rebuild this 
school, we have to rebuild the community. And we used the idea 
of sustainability as the foundation for that rebuilding. We 
knew that the school we tore down just this last summer was 
built in 1936, and this building needed to last well into the 
22nd century, because in many districts, you build a building 
at a time--elementary, middle, high school--and you start over 
20 or 30 years later--we don't have that opportunity.
    This new building will be the first K-12 public school in 
the Nation to achieve a LEED Platinum status. This is done 
through a radiant floor system, where both heating and cooling 
is done through tubing in the concrete floors, and a biomass 
boiler that ARRA funds from the Oregon Department of Energy 
grant helped pay for that provides heating for that system. We 
have multi-use spaces. Over 40 percent of the building is space 
that can be used by the community, and it is used often.
    As we looked at the financial challenge we faced, the 
district passed a $13 million bond. We built a $40 million 
building. The gap was filled with funds from FEMA, and, as I 
mentioned, the results of support from the Oregon legislature 
provided some funding. We received two different loans from--
the Cool Schools loan provided over 5 percent there, and all 
total, the Department of Energy has provided 8 percent of the 
funding for that school.
    One of the questions that sometimes comes up is: ``What 
difference does it make if you have a new school?'' Before we 
had the new school, I talked to the staff and said, ``We need 
to focus on sustainability.'' And 3 years before we got into 
the school, we turned around our curriculum so that all classes 
at all grade levels, K-12, focus on natural resources.
    We have sustainability days twice a year, when students go 
out and plant trees. We are going to be a site for the Bureau 
of Land Management Native Plant Nursery, where we will grow 
plants that will be used in local and regional stream 
restoration.
    All these things were done with the idea that we have to 
look to a different future. Oregon is timber country, and 
Vernonia was the heart of it, at one time boasting the largest 
electric sawmill in the world. But when 3-foot-diameter trees 
ran out, the mill closed down.
    The difference it has made is that we're now seeing 
families move back into the community. Before the flood in 
1996, we had over 800 students. When I came in 2006, we had 
720. Today, we have 550. Hopefully, next week, when we get back 
into school, we'll have a little bit more than that. I know 
that there are a number of families moving into the community.
    We did a study last spring to determine what the difference 
was between students' behavior at the old site, where they were 
in modulars, and the new school. We found a full 50 percent 
reduction in student referrals across the board at all grade 
levels.
    So it has made a difference. It has made a difference to 
the students. It has made a difference to the community, and 
the community has a future because of the impact of these kinds 
of programs and this kind of forward thinking as to what needs 
to happen in the future.
    I thank you for this opportunity.
    [The prepared testimony of Mr. Cox follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
    Senator Merkley. Thank you very much, Superintendent Cox.
    I thank all of our witnesses. I'm going to ask some 
questions of all of you to enhance this conversation. Then we 
will officially wrap up and adjourn and then continue with a 
more informal conversation. I'm going to proceed in the same 
order that the witnesses presented their information. Each of 
you presented a particular lens on the green jobs economy, and 
I appreciate it very much.
    Andrew, one of the things that I was curious about is did 
your experience from this building, with the various green 
building technologies, translate into other opportunities in 
the construction world, or do you anticipate that it will down 
the road?
    Mr. Colas. I would say yes. I think the biggest thing that 
we were able to get from this opportunity was exposure, and I 
think that's key for small businesses, for people to be able to 
see that even if you're a small business, if you're willing to 
put in the hard work, like Miss Berenice said, you can do a 
good job. So I think it was something that we were able to 
showcase, that we could work on projects like this.
    And we have worked on several other projects. We worked 
with the Portland Community College in Newberg. We built a LEED 
Platinum net zero building out there, and we've been able to 
work on more projects. But I think the big emphasis that we 
still continue to push forward is that when we're on projects, 
we want to be able to take other businesses along with us, to 
help small businesses get opportunities. If small businesses 
aren't getting opportunities on these types of projects, then 
it's really not sustainable.
    Senator Merkley. Which building was that in Newberg?
    Mr. Colas. The Portland Community College's new facility 
out in Newberg. It's a LEED Platinum net zero building.
    Senator Merkley. It was not that many years ago that LEED 
Platinum was just a twinkle in our eyes, and now we hear about 
building after building achieving that status.
    We've heard about some of these projects and the 
involvement with minority contracting and with women and so 
forth. Do you have any insights on things we should do to 
engage minority communities and minority owned businesses more 
in similar types of projects?
    Mr. Colas. Yes. I'm actually in another role. I'm the 
president of the National Association of Minority Contractors, 
and it's a group of minority contractors that have come 
together. We have really good, qualified members as a part of 
that base.
    I think, again, if you can really push and instill the 
triple bottom line of sustainability, the social, 
environmental, and economic impact, and every time you look at 
a project, you ask what social impact it's had, I think people 
will start to resonate that. When you're talking about green 
projects, it's not just about solar panels. It's about putting 
people to work, and I think if you start pushing that, it will 
become synonymous with sustainability.
    That's, I think, something that's lacking right now. It's 
not because people want it to be, but it's just because of the 
highly technical nature of this type of work. But as we've seen 
from all the different people that have testified here, 
clearly, there's women's businesses out there and there's 
minority businesses out there that can do a good job. And 
there's minority women that are in apprenticeships that can do 
a good job on these projects.
    So I would say if you can push that and ask that question 
each time somebody talks about a LEED Platinum building, I 
think then we'll start to see a real change.
    Senator Merkley. Thank you very much.
    Mr. Smith, you mentioned in your testimony that before 
Clean Energy Works, there were about 200 homes per year that 
were going through substantial energy-saving renovations or 
retrofits. But I didn't catch--so how many homes per year now 
across Oregon?
    Mr. Smith. Thank you, Mr. Chairman, for the question and 
for the honor to be here. We project that we'll do about 1,300 
homes this year. What we have now, thanks to the Federal 
investment, is an asset that's been built that can actually 
crank out retrofits on jobs in a scalable fashion. So without 
much additional investment in the core operating 
infrastructure, we can actually double our production. We just 
need a little more support from a program operating standpoint.
    One of the challenges that this industry has faced with 
deep home energy retrofits and deep retrofits, in general, is 
that utility dollars, rate payer dollars, are constrained in 
their ability to value job creation, equity outcomes, health 
and safety. Really, what they focus on is the lowest cost 
installation as a matter of what is considered cost-effective.
    We really need to look at that policy as we move forward. 
We really need policy that insures that rate payer dollars can 
mingle effectively with public dollars that want all these 
outcomes we're talking about here today and the private dollars 
that are, as the Governor mentioned, sitting on the sidelines, 
ready to play. We need all these sources of capital to be 
working productively together, and we need policy to enable 
that.
    Senator Merkley. By the way, that 1,300 per year--is that 
just the Clean Energy Works?
    Mr. Smith. That just in Clean Energy Works, yes. I would 
suspect that the entire marketplace is probably--we're probably 
close to three-quarters of the market. So I would suspect it's 
in the neighborhood of 1,800 this year.
    Senator Merkley. So that's a 9-fold or maybe more of a 10-
fold expansion in terms of this part of the economy.
    Mr. Smith. That's right.
    Senator Merkley. In terms of geographic range around 
Oregon, is the work spreading? Is it still primarily urban? 
Have we got a good rural component going or plans to do some?
    Mr. Smith. Yes, Mr. Chair. Thank you for the question. 
Eighty-two percent of the State's population has access to 
Clean Energy Works right now. The majority of the work--largely 
because the population and the areas that started first were 
close to Portland--is still urban. We have coverage everywhere.
    There are some unique challenges in rural communities, both 
on the workforce side and the contracting side, as well as the 
utility framework, where EPA serves the local utilities. And we 
have the same challenges there with utility funding and rate 
payer dollar deployment.
    But there's a lot more skill building and capacity 
development that needs to take place in rural communities. 
Actually, in the Columbia-Pacific region of the State, we 
helped contractors get--paved their way to get all the way 
through the training that's required that Berenice spoke of--
had the mentor, I believe, you and other Clean Energy Works 
contractors--to help them get ready for capacity that could 
lead to scale. And then what we want to do once we've built 
that capacity is come in and really crank up the demand and get 
that job creation going.
    Senator Merkley. Great. Thank you. Now, one more piece of 
this puzzle--one of the goals has been to develop as much on-
bill lending as possible, where people repay through their 
electrical bill or their natural gas bill. Have you forged 
partnerships with that? Is there more potential to forge 
partnerships? How well does that work when you're able to do 
that?
    Mr. Smith. Yes, Mr. Chair. Thank you for the question. We 
have forged great partnerships with utilities. I gave Sunny and 
PGE some credit previously and Northwest Natural and Pacific 
Power. Legislation was useful in enabling that.
    But I think we've found a way to make it minimal, in terms 
of impact on utilities. Costs are covered. We have scalable 
engagement with capital who values the low default rates that 
come when you enable folks to pay back these projects on their 
utility bill, and it's a really important part of the equation. 
Customers do value the ability to pay back on their utility 
bill.
    There are other forms of loan repayment that are also 
useful. It doesn't solve all the problems, but it is a very 
useful piece of the puzzle.
    Senator Merkley. The thing that I really like about that is 
that folks see the energy savings on their bill, and if their 
loan is on there as well, they realize they were able to 
upgrade their home, often practically paying for it with energy 
savings themselves. Thus, it's a win-win all the way around. 
Thank you very much.
    Berenice, thank you for sharing your story and your 
entrepreneurial efforts. And I loved that ``absolutely, except 
for every now and then.'' These are the challenges of building 
a small business. How have you seen the size of your company 
grow, say, over the last 5 years?
    Ms. Lopez-Dorsey. Well, H.E.L.P. Group started off in 2008. 
When everybody was laying off people, we were organizing 
ourselves to qualify for stimulus money. And thanks to 
President Obama, Oregon ended up with $20 million. That helped 
pay the Clean Energy Works Oregon.
    So since then--I think you were at my first project 5 years 
ago, and there were four of us. Now, we have 20 and mentor a 
lot of contractors. So it's been a tremendous help. I'm hoping 
that out of the 1,300 homes that is estimated next year, we get 
at least 200 so we can keep the jobs.
    It's been great. It's been favorable for job creation and 
being able to bring people into that triple bottom line 
economy. We definitely need to do a little bit more in being 
able to understand that the contracts shouldn't always go to 
the lowest bidder, because that's the difference between paying 
100 percent health insurance for an employee and having the 
employee take money to pay for their own health insurance.
    So you guys have been tremendous in supporting this type of 
situation, but we need more work. But we thank you for your 
support.
    Senator Merkley. And, Berenice, you said in your testimony 
that the average savings, I believe, were 34 percent. Do you 
have someone go back in an do an evaluation? Is it your own 
company, or is it a third party? How do you calculate the 
impact? Is it from actually looking at real bills that folks 
received down the line after the changes were made?
    Ms. Lopez-Dorsey. We do a pre-test prior to the 
retrofitting, and then once the retrofitting is done, we go 
back and do a post-test, and we are able to quantify the energy 
savings. And that's just--what we're able to quantify is the 
kilowatt hours reduction. It doesn't even include the health 
and safety of the house, which also has tremendous value. I 
hope that at some point in the near future, we'll be able to 
put a value to that and be able to see that.
    Senator Merkley. Thank you.
    And, Sary, we appreciated very much your story. You said 
you have two children?
    Ms. Dobhran. I have one.
    Senator Merkley. You have one child. So as you have become 
invested in this line of work--obviously, a strong connection 
to your interest in environmental efforts back when you were in 
college--do you see this as a family sustaining career, a 
strong financial platform, if you will, for raising your child?
    Ms. Dobhran. I do, and I would like to speak to that, first 
of all, how it affects my relationship with my child and the 
way he views me, and, second, how it affects my relationship 
with his community, his school, my community and what role that 
I play there. But my son is extremely proud of me. I am really 
honored that I got the time, albeit on welfare, to be one-on-
one with him.
    And I did wear him on my back. I was an organic farmer. So 
he has a lot of my same social skills from, you know, selling 
organic produce or being part of the community and what-not. 
But even when I have hard days and I don't want to go to work, 
he always pats me on the back and says, ``I'm proud of you, 
Mom. You're doing good.''
    And when people say, ``What does your mom do?'', he says, 
``She crawls under houses.'' But that's because I have long 
days where I say, ``I spent all day under a house.'' But that 
means a great deal to me, not only as--you know, when I became 
emancipated, I proved that I could take care of myself, and I 
put myself through school. And I was not going to fail there, 
not in front of my child, especially.
    So he sees that women are strong and they're powerful and 
we can do it. I'm able to be the head of the household and 
provide for him. When people say, ``What do you want to be when 
you grow up?'', he says, ``I want to be a worker like my mom, 
and race cars.''
    [Laughter.]
    Anyway, really interesting is that not only do I take care 
of me and my son so I'm not reliant on welfare, but I also am 
able to support his school, which is a nonprofit. It was a 
struggling school, and he was the first student. So for me to 
go to work full time means that I needed somebody, you know, 
employed full time, and that person is actually who put me in 
touch with the Oregon Tradeswomen.
    I have put in an organic farm there at the school, and I 
recently helped them write for a North Portland Small Business 
Development grant in order to upgrade the buildings. His school 
is now expanding from a small, inefficient house that I found 
has asbestos, and it's not actually--it's got some safety 
hazards. They're going to expand from that to the basement of 
the church.
    So I was able to go in and inspect it and we did the job 
for radon testing, quick retrofitting, energy upgrades, all of 
it. That was just recently submitted. But I'm very excited at 
how it all comes full circle, and it expands in its revolution.
    Senator Merkley. Well, there is nothing like a living wage 
job as a foundation for a family, so that is terrific.
    You mentioned, I believe, in your testimony, that you were 
the first in your family to go to college, as was I. Did you 
have a significant challenge with college debt?
    Ms. Dobhran. I still do. I'm kind of proud of myself. I was 
able to pay for three-quarters of my degree by myself. I worked 
two jobs, sincerely, especially the first 2 years, and then I 
qualified for grants and scholarships.
    A lot of my grant writing experience comes from advocating 
for myself and finding ways to fund my education.
    So I came out with about $25,000 debt. And, you know, you 
plug away at that.
    Senator Merkley. Well, that's right at the average for 
students who are coming out with debt. And for many, it does 
become a millstone, and it's a part of the challenge of getting 
life on track. But, anyway, you've overcome many challenges, 
and thank you. You're an inspiration.
    And, Casey, you talked about this green Workforce Mapping 
Project. Was that solely a project within the context of the 
Edith Green-Wendell Wyatt Building, or was it related to a set 
of projects that might happen down the line?
    Ms. Barnard. Well, initially, the Workforce Mapping Project 
was just related to the Edith Green Project. So I'd like to 
highlight the Project Labor Agreement, which was a really 
important part of the Edith Green Project, but also the 
community component, and that's a piece that I'd like to see 
made even stronger on future public projects. It allowed the 
funding for the Workforce Mapping Project to pay for Emerald 
Cities' participation along with other community groups.
    But it really gave me the time to go and sit down with 
apprenticeship coordinators, business managers, and most of the 
regional trade unions and get a better sense of how their 
system works from within. That is a really big asset to our 
community and one that many high schoolers out in the world 
don't know much about.
    So that's the main--Emerald Cities wants to see how we can 
tap into the existing resources and bring resources to the 
community groups that help educate community members, train 
them, and get them into that pipeline that results in, you 
know, no college loans at the end of the day. But we are 
actually working with some community partners on an ODOT, 
Oregon Department of Transportation, and Bureau of Labor and 
Industries project, where we're expanding on the energy work we 
did for the Edith Green Workforce Mapping Project, really 
digging into what the experience is like for an apprentice on 
the job.
    Senator Merkley. So that term, workforce mapping, was 
relatively--well, it was new to me, not relatively new. It was 
new. I looked at your statistics that you cited in your 
testimony of the level of apprentice participation, minority 
craft worker participation, and also minority and women's 
businesses. Essentially, are those the outcomes from the 
Workforce Mapping Project?
    I was trying to understand what contractors, 
subcontractors--how do we bring a diverse workforce to bear in 
an effective manner? Is that essentially what we're talking 
about when we talk about workforce mapping, conscientious or 
thoughtful planning related to participation?
    Ms. Barnard. I wish I could take credit for all of that. 
But, really, I would say that the outcome of the project labor 
agreement would set goals for those utilizations, and then 
establish the ongoing oversight committees. The oversight 
committees spearheaded my work on the Workforce Mapping 
Project, but also met regularly and came up with creative 
solutions.
    So, you know, when you're trying to drive apprentice 
utilization, there's a limited number of apprentices currently 
in the pipeline. Groups like Oregon Tradeswomen and 
Constructing Hope help feed that pipeline, and so being 
connected to them, forecasting, ``OK. In 6 months, this project 
is really going to need more workers from the electrical union 
or another trade. Where do we find those workers? How do we 
start looking for them and driving that pipeline?''
    Senator Merkley. I believe that Emerald Cities is also 
involved in assisting Hacienda Community Development 
Corporation in developing more energy conservation strategies 
for their work. This is of great interest to me, because I used 
to develop affordable housing, and I have seen kind of that 
community take up this goal. But could you share a little bit 
about that project?
    Ms. Barnard. Yes. We are really a community partner among 
many that are supporting Hacienda's work. But they are 
rehabbing their Clara Vista buildings, and so beginning in 
October of this year, they'll be breaking ground on the initial 
35-unit rehab, as well as an office space. That'll be about a 
9-month project.
    And then beginning in 2015, they'll break ground on those 
remaining 108 units. So that'll really turn those affordable 
housing units that are already a community asset into really 
livable, efficient spaces. I believe Colas Construction is 
actually involved in those projects, and we're looking at 
trying to apply community benefits to those projects to make 
sure that they utilize minority and women businesses and get 
more women and people of color on the job.
    Senator Merkley. Terrific. Thank you.
    And, Tia, I mispronounced your name the first time. Is it 
Vonil?
    Ms. Vonil. Vonil.
    Senator Merkley. Vonil. I'm delighted to have you share 
your story. I was intrigued as you said you were walking down 
the street, and you stumbled into the Oregon Tradeswomen. Do 
they have a storefront, or did you walk into somebody carrying 
some tools? Tell us a little bit more about that.
    Ms. Vonil. I was new to the neighborhood and was walking 
down MLK and saw the storefront that said Oregon Tradeswomen. 
As someone with ambitions of entering the electrical trade, I 
said, ``Well, hey, I'm soon going to be an Oregon tradeswoman'' 
and just literally knocked on the door.
    Senator Merkley. And that led to a path that got you into 
the IBEW apprenticeship program, or were you already aware of 
that?
    Ms. Vonil. Yes. I had already started the application 
process. But the timing was so great that before my final 
interview, I was able to complete the trades and apprenticeship 
class, and that really helped me prepare for the math test and 
an interview.
    Senator Merkley. Tremendous. Now, how long is your 
apprenticeship? When will you finish it? Do you see a 
sustainable family living wage job as you participate in this 
trade?
    Ms. Vonil. The apprenticeship is a 5-year apprenticeship, 
8,000 hours of on-the-job training. So I'm on my second year. 
I've still got a ways to go, but I know that it's going to work 
out. And, absolutely, the wages will be livable for me. I don't 
have a family, so that makes it even more livable.
    [Laughter.]
    Senator Merkley. Before I had children, I heard people with 
children say you're never so well off as before you have 
children.
    [Laughter.]
    Senator Merkley. I didn't really understand what they meant 
until we had our children. And, by the way, you mentioned and 
put more detail in your written testimony about the challenges 
of Don't Ask-Don't Tell, and I was proud to help in that policy 
for our Nation. I think the military is doing very well with 
the new strategy.
    Ms. Vonil. Well, thank you for that, for your support on 
that issue.
    Senator Merkley. You're welcome. Thank you. And best of 
luck as you pursue this trade.
    And, Superintendent Cox, the school is a phenomenal school, 
and I encourage anyone here to consider visiting it. When I 
went to see it at the ribbon cutting, and I saw it--I went to 
see the space before a shovel had been put in the ground, the 
vision that was being put together by so many different 
partners. But to see it constructed, it embodies this powerful 
connection between the community and the timber industry.
    As you may be aware, my father was a millwright in a Myrtle 
Creek mill when I was born. It's so much a part of our Oregon 
heritage, in general.
    But there were a tremendous number of partnerships in 
making that vision come to reality. Have you continued to see 
those partnerships play a role in shaping the community after 
the construction was completed?
    Mr. Cox. We continued those partnerships. I heard a number 
of people say that the Vernonia Oregon Solutions was the first 
time that all of the Oregon university systems came together to 
see how they could help support that project. We still have 
relationships with them through extension agents.
    There's a greenhouse nursery that we're looking at. We're 
hoping that these partnerships will continue to grow as we look 
for ways to finalize the project and move it forward. A lot of 
the partnerships are still there. We're still continuing to 
work with corporations, meeting almost every month to look for 
the final funding for the program. But it has been a unique 
opportunity to bring people together that you never thought 
would show up at the table.
    Senator Merkley. Thank you. I just want to do a little 
advertisement for Vernonia, because I thought when I saw the 
school and what it brought to the community--and you mentioned 
all the common rooms and the focus on the energy. If my 
children were very young, I'd be thinking about moving to 
Vernonia.
    You mentioned that you have a larger student count this 
coming year, and if you do, I'm sure it's in part attributable 
to the incredible spirit that was developed in the community 
along with the infrastructure related to strengthening the 
education system. You said that you see less measures for 
truancy, and that that kind of student behavior is changing. So 
that is a positive all the way around.
    You also mentioned that LEED Platinum status is being 
sought. Has that already been secured? What are the steps that 
remain in that process?
    Mr. Cox. The LEED Platinum status--you have to have so many 
points. Fifty-eight is the benchmark, and we currently have--or 
we're trying to make sure that we have 59. We've submitted our 
application. They've come back with some questions, and we're 
just finalizing responses to those to get that certification.
    Senator Merkley. Let me ask specifically about your biomass 
boiler. This helps symbolize the connection to the timber 
community.
    This is a situation where the Environmental Protection 
Agency--a conversation I've been having with them since I came 
into office was over the difference between carbon 
recirculating in a surface cycle between air and trees--the 
difference between that and fossil fuels that collect and add 
to that carbon cycle. In fact, the EPA has been doing 
scientific studies that back this up. That is a very different 
component.
    Is it a pellet system or a brick system? How is it working? 
Can you recommend it to others?
    Mr. Cox. Well, we do use a pellet system. We have a 35-ton 
silo out in back of the school, and the pellets are augured 
into the biomass boiler. We used that throughout the year last 
year. This year, we have a backup gas boiler, and we'll be 
using both to determine which would be the most cost-effective. 
We were able to get an excellent price from a local pellet 
supplier in Columbia City, so that's really helped us in that 
regard.
    Senator Merkley. Well, I'm going to make some closing 
comments. Thank you very much, Superintendent.
    Much of this discussion has been around energy efficiency 
in buildings, which is appropriate, because we have three very 
sizable contributors to energy issues, one being 
transportation, and one being electricity generation, and the 
third being buildings. And in the past, people kind of 
overlooked how important buildings were in this conversation. 
Obviously, that's changing, and it's good for the environment 
and certainly good for the economy as we've heard today.
    There is another sector where a lot can be done, and that's 
in manufacturing. We do have some examples around Oregon where 
companies have made significant changes in their manufacturing 
processes that save substantial sums. Gunderson, which builds 
and repairs railroad cars, has had quite a transformation--Warn 
Industries, Darigold, Portland Hospital Service Corporation, 
Boise Cascade Company's pilot rock mill, which I visited the 
other day.
    I won't go into details here, but much more could be done, 
because there's no national focus on this. So I'm going to be 
introducing a bill this coming month that focuses on energy 
savings in the manufacturing process. This, too, would be good 
for our productivity and our cost competitiveness, good for the 
environment, and help to sustain and grow our manufacturing 
sector.
    Certainly, if we don't make things in America, we will not 
have a middle class in America. So it's well worth focusing on. 
I've been very struck by the companies I have talked to about 
how the savings have been so tremendous with very short payback 
periods. And I keep hearing comments like, ``If only we had 
paused and thought about doing this 10 years earlier, because 
we see the dollars that would have been saved over those 
years.'' So I think it's an area well worth adding to our 
current work on buildings.
    So thank you, each of you. This is a process we hope to 
keep growing. There is huge potential to expand through the 
Rural Energy Savings Program, which would create a whole new 
set of rural electrical co-ops as partners. They have been 
terrific collaborators in my Rural Energy Savings Program bill, 
a bipartisan bill, as I mentioned at the outset, that passed 
the Senate twice. We hope to get it through the House and have 
it for the President.
    I hope that this hearing and you all sharing your stories 
will help to continue the momentum. All of you who have come to 
attend today--this is an unusual hearing. We don't often get to 
hold field hearings. This is actually my very first hearing as 
chair of the Subcommittee on Green Jobs. So I was delighted to 
be able to do this.
    When you first come into the Senate, you don't get to chair 
a subcommittee. But now that I'm a couple of years down the 
line here and have a little bit of seniority, I had the 
opportunity to do this. This particular Committee is very close 
to my heart because of how it reverberates in helping to build 
the middle class and a better world at the same time.
    So thank you for attending the inaugural meeting, for me, 
as chair of this Subcommittee. I hope this conversation will 
continue and the momentum will continue.
    The Subcommittee is adjourned.
    [Whereupon, at 11:42 a.m., the hearing was adjourned.]

                                 [all]
</pre></body></html>
